         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       Evaluation of the U.S. Chemical
       Safety and Hazard Investigation
       Board’s Compliance with the Federal
       Information Security Management
       Act (Fiscal Year 2009)

       Report No. 10-P-0174

       August 2, 2010
Abbreviations

CSB             U.S. Chemical Safety and Hazard Investigation Board
EPA             U.S. Environmental Protection Agency
FISMA           Federal Information Security Management Act
FY              Fiscal Year
IG              Inspector General
NIST            National Institute of Standards and Technology
OIG             Office of Inspector General
OMB             Office of Management and Budget
POA&M           Plans of Action and Milestones
SP              Special Publication
                       U.S. Environmental Protection Agency                                                10-P-0174
                                                                                                       August 2, 2010
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review             Evaluation of the U.S. Chemical Safety and Hazard
                                   Investigation Board’s Compliance with the Federal
We performed this review to        Information Security Management Act (Fiscal Year 2009)
assess the U.S. Chemical
Safety and Hazard
                                    What KPMG Found
Investigation Board’s (CSB’s)
compliance with the Federal
                                   During our FY 2009 evaluation, KPMG noted that CSB does have an information
Information Security
                                   security program in place that appears to be functioning as designed. We also
Management Act of 2002
                                   noted that CSB does take information security weaknesses seriously, as three of
(FISMA).
                                   the four prior year issues were closed. However, during this year’s assessment,
                                   we identified areas where CSB could improve upon its Risk Assessment, System
Background
                                   Security Planning, Plans of Action and Milestones, Contingency Planning, Access
                                   Controls, and Audit Logging practices.
The U.S. Environmental
Protection Agency (EPA)
                                   In addition to reviewing CSB’s information security practices, KPMG conducted
Office of Inspector General
                                   a network vulnerability test of key CSB system and network devices. This test
(OIG) contracted with KPMG,
                                   revealed vulnerabilities related to insecure system protocols, default
LLP, to perform the Fiscal
                                   configurations, and unpatched devices. While Board Order 034 provides policies
Year (FY) 2009 FISMA
                                   and procedures for maintaining device security, CSB personnel did not always
assessment. The evaluation
                                   follow this guidance to ensure that network devices were appropriately secured as
adhered to the Office of
                                   prescribed. Insecure protocols, default configurations, and unpatched devices
Management Budget (OMB)
                                   significantly elevate CSB’s risk of system and data compromise by unauthorized
reporting guidance for
                                   users, which could lead to the alteration or deletion of critical data and a
microagencies, which CSB
                                   degradation of system performance. KPMG provided the network vulnerability
is considered. We also
                                   results to CSB management and CSB worked diligently to remediate the
performed additional
                                   identified weaknesses.
procedures to assess the
information security program
                                    What KPMG Recommends
at CSB.
                                   KPMG recommends that CSB:

                                      •   Provide appropriate training to CSB individuals responsible for
For further information, contact          completing the Information Technology System risk assessment, security
our Office of Congressional,              plan, and access control procedures.
Public Affairs and Management         •   Develop, maintain, and periodically test the Information Technology
at (202) 566-2391.                        System contingency plan in accordance with Board Order 034 and federal
                                          guidance.
To view the full report,              •   Develop a process to maintain access approval requests for the
click on the following link:
                                          Information Technology System.
www.epa.gov/oig/reports/2010/
20100802-10-P-0174.pdf
                                      •   Update Board Order 034 to document a process for maintaining
                                          information security Plans of Action and Milestones.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                         August 2, 2010

MEMORANDUM

SUBJECT:       Evaluation of the U.S. Chemical Safety and Hazard Investigation Board’s
               Compliance with the Federal Information Security Management Act
               (Fiscal Year 2009)
               Report No. 10-P-0174


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:            The Honorable Rafael Moure-Eraso, Ph.D.
               Chairman and Chief Executive Officer
               U.S. Chemical Safety and Hazard Investigation Board


This final report on the above subject area summarizes the results of information technology
security work performed by KPMG, LLP, under the direction of the U.S. Environmental
Protection Agency’s Office of Inspector General (OIG). The report also includes KPMG’s
completed Fiscal Year 2009 Federal Information Security Management Act Reporting Template,
as prescribed by the Office of Management and Budget.

The estimated cost for performing this audit, which includes contract costs and OIG contract
management oversight, is $113,478.

If you or your staff have any questions regarding this report, please contact Rudolph Brevard at
(202) 566-0893 or brevard.rudy@epa.gov; or Gina Ross, Project Manager, at (202) 566-1041
or ross.gina@epa.gov.
                                                                                  August 2, 2010




SUBJECT:       Evaluation of the U.S. Chemical Safety and Hazard Investigation Board’s
               Compliance with the Federal Information Security Management Act for
               Fiscal Year 2009


THRU:          Arthur A. Elkins, Jr.
               Inspector General
               U.S. Environmental Protection Agency


TO:            The Honorable Rafael Moure-Eraso, Ph.D.
               Chairman and Chief Executive Officer
               U.S. Chemical Safety and Hazard Investigation Board


Attached is the KPMG, LLP, final report on the above subject audit. KPMG, LLP, performed
the Federal Information Security Management Act (FISMA) evaluation on behalf of the U.S.
Environmental Protection Agency. This report includes the test results for selected minimally
required information security controls defined by the National Institute of Standards and
Technology and the Office of Management and Budget FISMA reporting template for
microagencies.

If you or your staff have any questions regarding this report, please contact Rudolph Brevard at
(202) 566-0893 or brevard.rudy@epa.gov; or Gina Ross at (202) 566-1041 or
ross.gina@epa.gov.
Evaluation of the U.S. Chemical Safety and Hazard                                                                              10-P-0174
Investigation Board’s Compliance with the
Federal Information Security Management Act (Fiscal Year 2009)



                                      Table of Contents
   Purpose........................................................................................................................   1

   Background .................................................................................................................      1

   Scope and Methodology.............................................................................................                1

   Findings ......................................................................................................................   2

           Risk Assessment..................................................................................................         2
           Plans of Action and Milestones ............................................................................               2
           Contingency Plan .................................................................................................        3
           Access Control .....................................................................................................      3
           Audit Logs ............................................................................................................   3

   Recommendations ......................................................................................................            4

   Agency Response and KPMG Comments ................................................................                                4

   Status of Recommendations and Potential Monetary Benefits..............................                                           5



Appendices
   A       Microagency Reporting Template.....................................................................                       6

   B       Agency Response to Draft Report ...............................................................                           7
                                                                                      10-P-0174


Purpose
The U.S. Environmental Protection Agency (EPA) Office of Inspector General (OIG) initiated
this audit to assess the U.S. Chemical Safety and Hazard Investigation Board’s (CSB)
compliance with the Federal Information Security Management Act (FISMA) for Fiscal Year
(FY) 2009. The OIG contracted with KPMG, LLP, to conduct the audit.

Background

On December 17, 2002, the President signed into law H.R. 2458, the E-Government Act of 2002
(Public Law 107-347). Title III of the E-Government Act of 2002, commonly referred to as
FISMA (the Federal Information Security Management Act), focuses on improving oversight of
federal information security programs and facilitating progress in correcting agency information
security weaknesses. FISMA requires federal agencies to develop, document, and implement an
agency-wide information security program that provides security for the information and
information systems that support the operations and assets of the agency. This program includes
providing security for information systems provided or managed by another agency, contractor,
or other source. FISMA assigns specific responsibilities to agency heads and Inspectors General
(IGs). It is supported by security policy promulgated through Office of Management and Budget
(OMB), and risk-based standards and guidelines published in the National Institute of Standards
and Technology (NIST) Special Publication (SP) series.

Under FISMA, agency heads are responsible for providing information security protections
commensurate with the risk and magnitude of harm resulting from the unauthorized access, use,
disclosure, disruption, modification, or destruction of information and information systems.
FISMA directs federal agencies to report annually to the OMB Director, Comptroller General,
and selected congressional committees on the adequacy and effectiveness of agency information
security policies, procedures, and practices and compliance with FISMA. In addition, FISMA
requires agencies to have an annual independent evaluation performed of their information
security programs and practices and to report the evaluation results to OMB. FISMA states that
the independent evaluation is to be performed by the agency IG or an independent external
auditor as determined by the IG.

Scope and Methodology

The scope of our testing included CSB Information Technology System, the only CSB
information technology system that is subject to FISMA reporting requirements.

We conducted our testing through inquiry of CSB personnel, observation of activities, inspection
of relevant documentation, and the performance of limited technical security testing. Some
examples of our inquiries with agency management and personnel included, but were not limited
to, the process for documenting system security plans, processing user access, and the
configuration management process. Examples of our observations included, but were not limited
to, viewing access control settings on-screen, and viewing access control settings for portable
and mobile devices. Some examples of the documents inspected included, but were not limited


                                               1
                                                                                          10-P-0174


to, the CSB Information Technology System security plan and CSB Board Order 034,
Information Technology Security Program.

We performed a network vulnerability assessment of CSB’s network infrastructure. We used a
commercially available tool that tests networked information resources for commonly known
vulnerabilities. We provided the results of this testing to CSB management separately.

We performed this evaluation in accordance with Generally Accepted Government Auditing
Standards, issued by the Comptroller General of the United States.

Findings
During our FY 2009 evaluation, we noted that CSB does have an information security program
in place that appears to be functioning as designed. We also noted that CSB does take
information security weaknesses seriously, as three of the four prior year issues were closed.
However, during this year’s assessment, we identified areas where CSB could improve upon its
Risk Assessment, System Security Planning, Plans of Action and Milestones (POA&M),
Contingency Planning, Access Controls, and Audit Logging practices.

In addition, we conducted a network vulnerability assessment of key CSB system and network
devices. Our tests revealed vulnerabilities related to insecure system protocols, default
configurations, and unpatched devices. While Board Order 034 provides policies and procedures
for maintaining device security, CSB personnel did not always follow this guidance to ensure
that network devices were appropriately secured as prescribed. Insecure protocols, default
configurations, and unpatched devices significantly elevate CSB’s risk of system and data
compromise by unauthorized users, which could lead to altering or deleting critical data and
degrading system performance. We have provided the details of the network vulnerability
assessment to CSB management separately.

       Risk Assessment

CSB did not document the risk assessment for the Information Technology System in the format
outlined by National Institute of Standards and Technology (NIST) SP 800-30, Risk
Management Guide for Information Technology Systems. The Information Technology System
risk assessment does not address the requirements for threat identification, vulnerability
identification, control analysis, likelihood determination, impact analysis, risk determination, and
control recommendations as outlined in the NIST guide. We found CSB officials were not
trained in developing risk assessments consistent with NIST. As a result, CSB has a heightened
risk of not identifying risks and implementing mitigating controls over CSB’s Information
Technology System; potentially, system threats and risks could go undetected.

       Plans of Action and Milestones

CSB does not have a documented procedure for updating and maintaining a security POA&M
for the Information Technology System. Board Order 034 serves as CSB’s information security
policy, but the policy does not provide guidance on updating the security POA&M. We did note


                                                 2
                                                                                         10-P-0174


that the existing Information Technology System POA&M is consistent with federal guidance,
but a documented procedure for updating the POA&M would further strengthen CSB’s
information security program. As CSB identifies new vulnerabilities, a documented POA&M
procedure would help guide CSB personnel document risk mitigation plans and establish
achievable completion dates. Further, should CSB experience turnover in key information
security staff, the newer staff may not be as familiar with how to maintain and update the
POA&M.

       Contingency Plan

CSB does not have a documented and tested contingency plan for the Information Technology
System. Board Order 034 documents a policy and procedure for developing and maintaining a
system contingency plan. Further, CSB performs some contingency planning activities,
including periodically backing up data and rotating backup data to an offsite location. However,
CSB has not developed or tested a system-specific contingency plan. CSB management did not
commit the resources and leadership required to develop a contingency plan for the Information
Technology System. Without a documented and tested contingency plan completed in
accordance with NIST guidance, CSB is at increased risk, that should a significant incident
occur, CSB would not be able to recover Information Technology System capabilities.

       Access Control

CSB does not consistently maintain records for granting access to the Information Technology
System. We reviewed documentation supporting access approvals for 13 percent (5 of 40)
Information Technology System users. We found a lack of supporting documentation for every
user. Lack of training on the access approval and retaining the supporting documentation
process led to access approval supporting documentation not being maintained. By not
maintaining documentation supporting system accesses, CSB is at increased risk that system
users are not granted access in accordance with management’s request.

       Audit Logs

CSB has not developed a procedure for performing and documenting log reviews for the
Information Technology System. According to CSB officials, security staff members perform a
weekly review of Information Technology System audit logs. However, CSB has not
documented a specific procedure for performing those audits in accordance with NIST guidance
or Board Order 034. The lack of documented procedure for performing system audit log reviews
increases CSB’s risk that information system security personnel will not conduct the log reviews
in a consistent manner, which could lead to increased risk of not detecting key security violations
and events.




                                                3
                                                                                     10-P-0174


Recommendations

We recommend that the Chairman, U.S. Chemical Safety and Hazard Investigation Board:

       1. Provide appropriate training to CSB individuals responsible for completing the
          Information Technology System risk assessment. The training should encompass
          required risk assessment elements.

       2. Perform and document the Information Technology System risk assessment in full
          accordance with NIST SP 800-30 as required by FISMA and CSB policy.

       3. Enhance Board Order 034 to document a procedure for developing and maintaining
          the security POA&M for the Information Technology System.

       4. Provide training to key CSB officials on maintaining the POA&M consistent with the
          documented Board Order 034 procedure.

       5. Develop, maintain, and periodically test a contingency plan for the Information
          Technology System in accordance with CSB Board Order 034 and NIST guidance.

       6. Provide training to CSB management officials on the need to maintain user access
          documentation in accordance with Board Order 034 and NIST guidance.

       7. Ensure that access approval documentation is maintained for the Information
          Technology System.

       8. Document an audit log review procedure in Board Order 034 consistent with NIST
          800-92. The procedure should describe, at a minimum, which system audit logs are to
          be reviewed, the frequency of log reviews, the process for documenting the reviews,
          and any escalation procedures needed should a security violation or other event be
          identified.

       9. Provide training to security analysts responsible for complying with Board Order 034
          device security requirements.

       10. Conduct periodic vulnerability scans to assess device security.

Agency Response and KPMG Comments

In general, CSB agreed with our findings and recommendations. However, CSB disagreed with
recommendations related to the prior year audit finding to implement a process for effectively
tracking key changes to the Information Technology System security plan. CSB believed that it
completed all actions related to the Fiscal Year 2008 recommendations. We reviewed CSB’s
actions to address the recommendations and concluded that sufficient actions had been taken to
address these two recommendations. As a result, we removed the two recommendations from
the final report.

                                                4
                                                                                                                                       10-P-0174



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1       Action Official          Date      Amount      Amount

     1        4     Provide appropriate training to CSB individuals           O       Chairman, U.S. Chemical
                    responsible for completing the Information                           Safety and Hazard
                    Technology System risk assessment. The training                     Investigation Board
                    should encompass required risk assessment
                    elements.

     2        4     Perform and document the Information Technology           O       Chairman, U.S. Chemical
                    System risk assessment in full accordance with                       Safety and Hazard
                    NIST SP 800-30 as required by FISMA and CSB                         Investigation Board
                    policy.

     3        4     Enhance Board Order 034 to document a                     O       Chairman, U.S. Chemical
                    procedure for developing and maintaining the                         Safety and Hazard
                    security POA&M for the Information Technology                       Investigation Board
                    System.

     4        4     Provide training to key CSB officials on maintaining      O       Chairman, U.S. Chemical
                    the POA&M consistent with the documented Board                       Safety and Hazard
                    Order 034 procedure.                                                Investigation Board

     5        4     Develop, maintain, and periodically test a                O       Chairman, U.S. Chemical
                    contingency plan for the Information Technology                      Safety and Hazard
                    System in accordance with CSB Board Order 034                       Investigation Board
                    and NIST guidance.

     6        4     Provide training to CSB management officials on           O       Chairman, U.S. Chemical
                    the need to maintain user access documentation in                    Safety and Hazard
                    accordance with Board Order 034 and NIST                            Investigation Board
                    guidance.

     7        4     Ensure that access approval documentation is              O       Chairman, U.S. Chemical
                    maintained for the Information Technology System.                    Safety and Hazard
                                                                                        Investigation Board

     8        4     Document an audit log review procedure in Board           O       Chairman, U.S. Chemical
                    Order 034 consistent with NIST 800-92. The                           Safety and Hazard
                    procedure should describe, at a minimum, which                      Investigation Board
                    system audit logs are to be reviewed, the
                    frequency of log reviews, the process for
                    documenting the reviews, and any escalation
                    procedures needed should a security violation or
                    other event be identified.

     9        4     Provide training to security analysts responsible for     O       Chairman, U.S. Chemical
                    complying with Board Order 034 device security                       Safety and Hazard
                    requirements.                                                       Investigation Board

    10        4     Conduct periodic vulnerability scans to assess            O       Chairman, U.S. Chemical
                    device security.                                                     Safety and Hazard
                                                                                        Investigation Board

1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress



                                                                                  5
                                                                                                                                   10-P-0174


                                                                                                                             Appendix A

                            Microagency Reporting Template
       Microagency Reporting Template for FY 2009 FISMA and Information Privacy Management
Agency Name:      Chemical Safety and Hazard Investigation Board
Agency Point of Contact:   Ana Johnson
Microagencies are defined as agencies employing 100 or fewer Full Time Equivelent positions (FTEs). Microagencies
must report to OMB annually on FIMSA and Information Privacy Management. While quarterly reports/updates are not
required, microagencies should be prepared to provide information or to begin submitting quarterly reports to OMB
upon request.
                                         1. Information Systems Security
  a.    Total Number of agency and contractor systems                                                                        1
  b.    Number of agency and contractor systems certified and accredited                                                     1
        Number of agency and contractor systems for which security controls have been tested and
  c.                                                                                                                         1
        reviewed in the past year
  d.    Was an independent assessment conducted in the last year?                                                            Yes
  e.    Number of employees                                                                                                  37

  f.    Number of contractors                                                                                                3

        Number of employees and contractors who received IT security awareness training in the last
  g                                                                                                                          40
        year
                                                2. Information Privacy

  a.    Breach Notification
        Agencies are required by OMB memorandum (M-07-16) of May 22, 2007, “Safeguarding Against and Responding to the
        Breach of Personally Identifiable Information” to develop and implement a breach notification policy within 120 days.

        Please certify whether your agency has completed the requirements of M-07-16 by answering "Yes"
        or "No" to questions (1) through (4) in the table below.

        I certify the agency has completed:
         1.     A breach notification policy (Attachment 3 of M-07-16)                                                 Yes
                An implementation plan to eliminate unnecessary use of Social Security Numbers (SSN)
         2.                                                                                                            Yes
                (Attachment 1 of M-07-16)
                An implementation plan and progress update on review and reduction of holdings of personally
         3.                                                                                                            Yes
                identifiable information (PII) (Attachment 1 of M-07-16)
                Policy outlining rules of behavior and identifying consequences and corrective actions available for
         4.                                                                                                            Yes
                failure to follow these rules (Attachment 4 of M-07-16)

        Note: Micro agencies must maintain all documentation supporting this certification, and make it available in
        a timely manner upon request by OMB or other oversight authorities. Micro Agencies are not required to
        provide the actual documentation with the annual report.
        Privacy Impact Assessments (PIAs) and Systems of Record Notices (SORNs)
  b.    Please provide the URL to a centrally located web page on the agency web site on which the agency lists
        working links to all of its PIAs and working links to all of its SORNs published in the Federal Register.
        Agencies must maintain all documentation supporting this certification and make it available in a timely
        manner upon request by OMB or other oversight authorities. By submitting the template the agency certifies
        that to the best of agency's knowledge the quarterly report accounts for all of the agency’s systems to which
        the privacy requirements of the E-Government Act and Privacy Act are applicable. If the agency does not
        have any PIAs or SORNS, enter "NA."

                Provide the URL of the centrally located page on the agency web site             http://www.csb.gov/index.cfm?folder=con
         b.1.
                listing working links to agency PIAs: (Hyperlink not required)                   tact_information&page=index

                Provide the URL of the centrally located page on the agency web site             http://www.csb.gov/index.cfm?folder=con
         b.2.
                listing working links to the published SORNs: (Hyperlink not required)           tact_information&page=index.


                                                                         6
                                    10-P-0174


                                  Appendix B

Agency Response to Draft Report




               7
    10-P-0174




8
    10-P-0174




9
     10-P-0174




10
     10-P-0174




11
     10-P-0174




12
